   Statement of Gregory H. Friedman

            Inspector General

       U.S. Department of Energy


                 Before the

Subcommittee on Oversight and Investigations
                   of the
    Committee on Energy and Commerce

       U.S. House of Representatives




                              FOR RELEASE ON DELIVERY
                                                 10:00 AM
                                       Friday, June 9, 2006
Mr. Chairman and members of the Subcommittee, I am pleased to be here at your request

to testify on cyber security issues at the Department of Energy.


The Department of Energy, which spends over $2 billion each year on information

technology (IT), has a current inventory of approximately 800 information systems,

including up to 115,000 personal computers; many powerful supercomputers; numerous

servers; and, a broad array of related peripheral equipment. These systems process

operational, financial, and highly classified national security data. The need to protect

this data and the related systems is of paramount concern to the Department and to the

Office of Inspector General (OIG).



As is widely recognized both in the private and public sectors, the threat of intrusion or

damage to information networks and systems continues to grow as cyber-related attacks

become more sophisticated. The media regularly carries stories about malicious

intrusions and compromises of sensitive data. Within the Department of Energy

complex, on a regular basis, hackers attempt to intrude or cause damage to the

Department’s networks and systems. Cyber security threats of this sort reinforce the need

for an aggressive Departmental program of controls and safeguards to protect against any

compromise of vital data.


The Office of Inspector General has a proactive program to assess the effectiveness of the

Department’s cyber security strategy. For the last four years, the OIG has categorized

information technology and systems security as one of the Department of Energy’s most

significant management challenges. This was based on internal control weaknesses



                                             1
identified as part of the Inspector General’s regular evaluation of the Department’s cyber

security program. These reviews include the annual evaluation required under the

Federal Information Security Management Act (FISMA) and other cyber security-related

reviews focusing on high-risk activities. In addition, the OIG’s technology crimes unit,

with its highly trained special agents, regularly and successfully investigates malicious

attacks on Department systems.


In today’s testimony I would like to highlight continuing challenges identified through

our work in cyber security. I will outline results from completed activities and criminal

investigations, and discuss ongoing review efforts.



2005 FISMA Evaluation


The purpose of the Federal Information Security Management Act of 2002 was to elevate

attention to the issue of information technology security within the Federal sector. Under

FISMA, each agency is required to develop, document, and implement an agency-wide

program to provide security for the information and systems that support core operations.

It also requires that agency Inspectors General conduct an annual independent evaluation

of their Department’s unclassified cyber security program and practices. At the

Department, the evaluation is performed in conjunction with our annual Audit of the

Department’s Financial Statements and leverages testing of information technology

controls performed on individual site and Department-wide financial systems.


Last year, as part of this evaluation, we conducted reviews at 27 sites, which, depending

upon the location, included examinations of the Department’s compliance with


                                             2
information system-related laws and regulations; tests of general and application controls;

and, vulnerability and penetration testing. We also incorporated information gathered by

and conclusions reached by KPMG, our financial statement contractor; reports issued by

the Government Accountability Office; inspection results obtained from the

Department’s Office of Independent Oversight; and, other internal studies.


Our 2005 review noted systemic cyber security problems that exposed the Department’s

critical systems to an increased risk of compromise. Specifically:


   •   The Department had not yet established a complete inventory of information

       systems; nor, had it identified all of the existing interfaces between internal and

       external systems and networks. These tasks are critical to planning and

       implementing protective efforts.


   •   Many sites had not completed or properly performed certification and

       accreditation of all their major and general support systems. This process verifies

       that the Department’s systems are secure for operation and enables program

       officials to address high-risk issues through cost-effective mitigation strategies.


   •   The Department had not resolved noted problems with critical security controls

       such as access authority, segregation of duties, and configuration management.

       These safeguards and controls are designed to protect computer resources from

       unauthorized modification or loss and to prevent fraudulent activities.




                                             3
   •   Contingency plans, necessary to ensure that systems could continue or resume

       operations in the event of an emergency, disaster, or malicious intrusion event,

       had not been completed for certain critical systems.


   •   Department elements did not always report cyber security incidents to law

       enforcement officials, as required. Failure to report these occurrences jeopardizes

       the timely investigation and resolution of these matters.


Similarly, our Audit of the Department of Energy’s 2005 Consolidated Financial

Statements (DOE/OAS-FS-06-01, November 2005) noted network vulnerabilities;

weaknesses in access controls; and, other security shortcomings in the Department’s

unclassified computer information systems. These shortcomings increased the risk that

malicious destruction, alteration of data, or other unauthorized processing could occur.

As a result, “Unclassified Network and Information Systems Security” was designated as

a reportable condition. An Information Technology Management Letter, which detailed

25 site-specific vulnerability findings, was issued as part of the 2005 Financial Statement

Audit Report.


Criminal Investigations and Internal Control Weaknesses


As part of its law enforcement mission, the OIG aggressively pursues those who have

attempted to compromise or inflict damage on the Department’s computer systems. In

this role, we have successfully investigated a number of intrusions with both national and

international connections. We work closely with Department of Justice prosecutors and

the Federal Bureau of Investigation in pursuing these matters and have worked on


                                             4
specific cases with external law enforcement agencies such as New Scotland Yard and

the Royal Canadian Mounted Police.


Because the Department has to deal with frequent intrusion attempts that could

compromise systems, it is critical that strong security controls are implemented and

appropriately executed. Our investigations have revealed problems with the deployment

of controls in certain areas; for example, we have observed, in past investigations, a

number of internal control weaknesses related to poor password administration. In one

investigation, we determined that employees of a United States-based computer security

company compromised unclassified Department of Energy and other government

systems. Company officials were able to gain access to scientific data from a

Headquarters system through the use of hacker tools that exploited a password

vulnerability. Three individuals pled guilty in connection with those activities.



During another criminal investigation, we determined that two individuals within the

United States gained access to an unclassified website belonging to Sandia National

Laboratory, part of the Department of Energy’s national laboratory network. They were

able to gain access by exploiting a default password. These individuals pled guilty and

have been sentenced in connection with their activities. In yet another investigation, an

individual compromised a network at the Fermi National Laboratory, again by taking

advantage of problems with weak password administration. The hacker, who pled guilty

to his activities, used the system as his personal storage site to host illegal software –

creating the ability for others to download the intruder’s data from the Department’s

systems.


                                               5
Ongoing Reviews


As noted previously, the Department invests over $2 billion each year for information

technology throughout its complex. It is essential, especially given the size of the

resource commitment, that all IT and cyber security initiatives be economic and efficient.

To address this concern, we perform focused reviews on information technology-related

areas. Over the course of such work, we have identified millions of dollars in potential

savings in findings related to enterprise architecture, enterprise licensing, and IT support

services.



The OIG is currently conducting comprehensive reviews directed at three key elements of

cyber security: the Department’s Systems Certification and Accreditation Process; its

Cyber and Computer Forensics Analysis Capabilities; and, its Security Configuration and

Vulnerability Management Program.


                     Systems Certification and Accreditation Process


Systems certification and accreditation is an essential step in verifying that the

Department’s systems are secure for operation. As noted previously, we identified

multiple problems with the certification and accreditation process at certain sites; and, as

a consequence, we initiated a review to determine whether the Department’s systems

have been appropriately certified and accredited for operation.


                   Cyber and Computer Forensics Analysis Capabilities



                                              6
An ongoing effort is examining whether the Department had formally developed and

implemented a unified, effective, and efficient means of analyzing and acting on

information related to malicious attacks or intrusions. As part of this audit, we are

following up on problems with cyber incident reporting previously identified by the OIG

in 2003.


                  Security Configuration and Vulnerability Management


Building on findings in prior years and on the work already completed by our financial

statement auditor, an audit team is examining operating systems and applications. This

effort will determine, among other things, whether minimum security configuration

standards have been established and implemented at Headquarters and Department field

sites.




Status of the 2006 Office of Inspector General FISMA Evaluation



The Office of Inspector General is currently conducting the 2006 evaluation of the

Department’s Cyber Security Program. This Department-wide effort includes site-level

evaluations – consisting of vulnerability and penetration testing and general and

application controls testing – at eight sites: the NNSA Service Center in Albuquerque;

Los Alamos National Laboratory; Sandia National Laboratories; the Chicago Operations

Office; Argonne National Laboratory; the Kansas City Plant; the Y-12 Plant; and the

National Energy Technology Laboratory. We are performing follow-up reviews at 12




                                             7
additional sites. We are also specifically evaluating corrective actions and new initiatives

begun this year by the Office of the Chief Information Officer.




As you are no doubt aware the Department of Veterans Affairs (VA) recently

experienced the loss of sensitive personal data for millions of Veterans and, apparently, a

large number of active duty personnel. This has understandably raised concerns about

identity theft and related problems. My colleague, the Inspector General for the VA, has

initiated several probes into this matter. As part of our ongoing FISMA evaluation, we

intend to determine if the Department has taken action to prevent compromises similar to

those which recently occurred at the VA.



Conclusion


The Department has informed us that, as a result of the concerns raised by our office, it

has initiated actions to strengthen its cyber security program. In particular, under the

direction of Secretary Bodman and Deputy Secretary Sell, it has implemented a number

of countermeasures to reduce network vulnerabilities and embarked on a revitalization

initiative that will focus high-level management attention on cyber issues. These efforts

are promising and, if fully implemented, should help improve the Department’s cyber

security posture. While the Department is moving aggressively in this area, much

remains to be done. As the House of Representatives Committee on Government Reform

has recognized for the past three years through its ratings of Federal agencies’ cyber

security programs, significant weaknesses continue to exist at the Department of Energy.




                                              8
The threat to the Department's systems is constantly evolving as hackers develop new and

increasingly sophisticated tools and techniques. The potential for harm is not limited to

malicious internet-based attacks, but also includes other efforts by internal users to gain

access to resources or information to which they are not entitled. Constant vigilance is

required to establish and maintain a defensive posture that is sufficient to prevent or

quickly detect problems. The Office of Inspector General is committed to fulfilling its

responsibilities by continuing to conduct a wide range of reviews to identify opportunities

for improvement and investigate intrusion attempts on the Department’s systems and

networks.


Mr. Chairman, this concludes my statement and I would be pleased to answer any

questions.




                                              9
